No. 20-1507
In the

Supreme Court of the United States
ASSOCIATION OF NEW JERSEY RIFLE & PISTOL
CLUBS, INC. AND BLAKE ELLMAN,
Petitioners,
v.
GURBIR S. GREWAL, IN HIS OFFICIAL CAPACITY
AS ATTORNEY GENERAL OF NEW JERSEY, et al.,
Respondents.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Third Circuit
BRIEF OF CALIFORNIA RIFLE & PISTOL
ASSOCIATION, INCORPORATED, GUN OWNERS
OF CALIFORNIA AND SECOND AMENDMENT
LAW CENTER AS AMICUS CURIAE IN
SUPPORT OF PETITIONERS

C.D. Michel
A nna M. Barvir
Counsel of Record
Konstadinos T. Moros
Michel & A ssociates, P.C.
180 East Ocean Boulevard, Suite 200
Long Beach, CA 90802
(562) 216-4444
abarvir@michellawyers.com
Counsel for Amicus Curiae
May 28, 2021
304915

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . .  iii
AMICUS CURIAE STATEMENT OF INTEREST . . 1
SUMMARY OF ARGUMENT  . . . . . . . . . . . . . . . . . . . . 2
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
I.

The Circuits’ Disrespect of Heller Begs
for the Court’s Intervention to Clarify
Several Second Amendment Issues . . . . . . . . . . . 3

II. The Erosion of the Second Amendment
in the Ninth Circuit Illustrates How
Courts Have Disrespected Heller . . . . . . . . . . . . 7
III. Comparing the Different Decisions of the
Third and Ninth Circuits Regarding the
Constitutionality of LCM Bans  . . . . . . . . . . . . . 10
A. Both ANJRPC and Duncan Hold
That LCMs Are in Common Use . . . . . . . . 10
B. Both ANJRPC and Duncan A lso
Hold That LCMs Are Protected by
the Second Amendment, But Only
Duncan Engages in a Text, History,
and Tradition Analysis  . . . . . . . . . . . . . . . . 12

ii
Table of Contents
Page
C. A NJRPC Upheld New Jer sey ’s
LCM Ban Under a Watered-down
For m of Int er med iat e Scr uti ny
Favored by Most Circuits, While
Duncan Stands Out for Its Correct
Application of Strict Scrutiny . . . . . . . . . . . 15
1.

The So-Called “Intermediate
Scrutiny” Applied to Second
Amendment Cases Is a Glorified
Rational Basis Test . . . . . . . . . . . . . . . . 15

2. The ANJRPC Panel Upheld New
Jersey’s LCM Ban Under This Faux
Intermediate Scrutiny Standard  . . . . 18
3.

The Duncan Panel Held That
Strict Scrutiny Should Apply, But
Even if it Does Not, LCM Bans
Cannot Survive True Intermediate
Scrutiny  . . . . . . . . . . . . . . . . . . . . . . . . . 20

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

iii
TABLE OF CITED AUTHORITIES
Page
CASES
Ass’n of N. J. Rifle & Pistol Clubs v.
Att’y Gen. of N.J.,
910 F.3d 106 (3d Cir. 2018) . . . . . . . . . . . . . . . . . passim
Clark v. Jeter,
486 U.S. 456 (1988) . . . . . . . . . . . . . . . . . . . . . . . passim
District of Columbia v. Heller,
554 U.S. 570 (2008) . . . . . . . . . . . . . . . . . . . . . . . . . . .  17
Drake v. Filko,
724 F.3d 436 (3d Cir. 2013) . . . . . . . . . . . . . . . . . passim
Duncan v. Becerra,
742 F. App’x 218 (9th Cir. 2018) . . . . . . . . . . . . . . . . . . . 
Duncan v. Becerra,
970 F.3d 1133 (9th Cir. 2020), reh’g en banc ordered,
988 F.3d 1209 (9th Cir. 2021) . . . . . . . . . . . . . . . . . . 1, 2
Heller v. District of Columbia,
670 F.3d 1244 (D.C. Cir. 2011) . . . . . . . . . . . . . . . 12, 15
Jackson v. City & Cnty. of S.F.,
746 F.3d 953 (9th Cir. 2014), cert. denied,
576 U.S. 1013 (2015) . . . . . . . . . . . . . . . . . . . .4, 5, 12, 16
Kolbe v. Hogan,
849 F.3d 114 (4th Cir. 2019)  . . . . . . . . . . . . . . . . . 12, 17

iv
Cited Authorities
Page
Mance v. Sessions,
896 F.3d 390 (5th Cir. 2018) . . . . . . . . . . . . . . . . . . . . . 3
McCullen v. Coakley,
573 U.S. 464 (2014)  . . . . . . . . . . . . . . . . . . . . . . . . . . .  17
McDonald v. City of Chicago,
561 U.S. 742 (2010)  . . . . . . . . . . . . . . . . . . .  1, 10, 17, 22
N.Y. State Rifle & Pistol Ass’n v. Corlett,
No. 20-843 (Apr. 26, 2021)  . . . . . . . . . . . . . . . . . . . . . . 6
Packingham v. North Carolina,
--U.S.--, 137 S. Ct. 1730 (2017) . . . . . . . . . . . . . . . . . . 16
Peña v. Lindley,
898 F.3d 969 (9th Cir. 2018), cert. denied,
141 S. Ct. 108 (2020) . . . . . . . . . . . . . . . . . . . . . . . . 4, 17
Perry Educ. Ass’n v.
Perry Loc. Educators’ Ass’n,
460 U.S. 37 (1983)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Peruta v. San Diego,
824 F.3d 919 (9th Cir. 2016), cert. denied,
137 S. Ct. 1995 (2017)  . . . . . . . . . . . . . . . . . . . . . 7, 8, 18
R.A.V. v. City of St. Paul,
505 U.S. 377 (1992)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

v
Cited Authorities
Page
Reynolds v. United States,
98 U.S. 145 (1879)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
Teixeira v. Cnty. of Alameda,
873 F.3d 670 (9th Cir. 2017), cert. denied sub nom.,
138 S. Ct. 1988 (2018) . . . . . . . . . . . . . . . . . . . . . . . . 3, 9
United States v. Chester,
628 F.3d 673 (4th Cir. 2010)  . . . . . . . . . . . . . . . . . . . . 24
United States v. Marzzarella,
614 F.3d 85 (3d Cir. 2010) . . . . . . . . . . . . . . . . . . . . . . 18
Young v. Hawaii,
992 F.3d 765 (9th Cir. 2021) . . . . . . . . . . . . . . . . . . . . . 8
STATUTES AND OTHER AUTHORITIES
U.S. Const., amend. I . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
U.S. Const., amend. II . . . . . . . . . . . . . . . . . . . . . . . passim
U.S. Const., amend. XIV . . . . . . . . . . . . . . . . . . . . . . . . . 10
IRS Code § 501(c)(3)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 1, 2
IRS Code § 501(c)(4) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1, 2
Rodney Dangerfield, I Don’t Get No Respect!
(Bell 1970) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

1
AMICUS CURIAE STATEMENT OF INTEREST
Founded in 1875, California Rifle and Pistol Association,
Incorporated is a nonprofit organization that seeks to
defend the Second Amendment and advance laws that
protect the rights of individual citizens. CRPA regularly
participates as a party or amicus in firearm-related
litigation. CRPA works to preserve the constitutional and
statutory rights of gun ownership, including the right to
self-defense, the right to hunt, and the right to keep and
bear arms. CRPA is also a plaintiff in Duncan v. Becerra,
970 F.3d 1133 (9th Cir. 2020), a related case pending before
an en banc panel of the Ninth Circuit.1
Gun Owners of California, Inc. was incorporated
in California in 1982 and is one of the oldest pro-gun
political action committees in the United States. GOC is
a nonprofit organization, exempt from federal taxation
under §§ 501(c)(3) or 501(c)(4) of the Internal Revenue
Code. It is dedicated to the correct interpretation and
application of the constitutional guarantees related to
firearm ownership and use. Affiliated with Gun Owners
of America, GOC lobbies on firearms legislation in
Sacramento and was active in the successful battle to
overturn the San Francisco handgun ban. GOC has filed
amicus briefs in other Second Amendment cases, including
District of Columbia v. Heller, 554 U.S. 570 (2008) and
McDonald v. City of Chicago, 561 U.S. 742 (2010).
1. No counsel for a party authored this brief in whole or
in part, nor did such counsel or any party make a monetary
contribution to fund this brief. Preparation and filing of this brief
were completely funded by CRPA. Amici missed the deadline
to provide 10-day notice of their intention to file, but all parties
individually consented to this filing.

2
The Second Amendment Law Center is a nonprofit
corporation organized under § 501(c)(3) of the Internal
Revenue Code. 2ALC is dedicated to promoting and
defending the individual rights to keep and bear arms for
hunting, sport, self-defense, and other lawful purposes
envisioned by the Founding Fathers. The purpose of
2ALC is to defend these rights in courts across the
country. 2ALC also seeks to educate the public about
the social utility of private firearms ownership and to
provide accurate and truthful historical, criminological,
and technical information about firearms to policy makers,
judges, attorneys, police, and the public.
SUMMARY OF ARGUMENT
Mistreatment of the Second Amendment is now all too
common among lower courts. Indeed, it is the norm. As
plaintiff or amicus in countless Second Amendment
lawsuits in the Ninth Circuit—one of the worst offenders
of peddling in counterfeit Second Amendment analyses—
Amici speak from first-hand experience. Over the last
decade, theirs have been among the consistent flood of
petitions to this Court seeking review of rejected Second
Amendment claims. Left unguided by this Court, lower
courts, including the Third and Ninth Circuits, will
continue to trample Second Amendment rights with
impunity and those petitions will not abate.
Petitioners’ case concerns the constitutionality of
banning large capacity magazines, the same question at
issue in Duncan v. Becerra, 970 F.3d 1133 (9th Cir. 2020),
reh’g en banc ordered, 988 F.3d 1209 (9th Cir. 2021). That
these courts reached opposite conclusions while employing
such widely divergent analyses highlights why this Court
must grant certiorari.

3
ARGUMENT
I.

The Circuits’ Disrespect of Heller Begs for the
Court’s Intervention to Clarify Several Second
Amendment Issues

In circuit courts across the country, the precedent
established by District of Columbia v. Heller, 554 U.S. 570
(2008), has atrophied from neglect. In the years since that
landmark case, many circuits have so severely contorted
Heller that nearly any type of firearm restriction is upheld
under what amounts to a glorified rational basis test.
Such subjective tests lack grounding in Heller (or any
other Supreme Court precedent), and they essentially
doom every iteration of Second Amendment challenge.
This phenomenon is no secret to the bench. One circuit
judge described the Second Amendment as “the Rodney
Dangerfield of the Bill of Rights.” Mance v. Sessions, 896
F.3d 390, 396 (5th Cir. 2018) (Willett, J., dissenting). It
“don’t get no respect!” Rodney Dangerfield, I Don’t Get
No Respect! (Bell 1970). Another judge warned that “[o]ur
cases continue to slowly carve away the fundamental right
to keep and bear arms,” noting how a particular “decision
further lacerates the Second Amendment, deepens the
wound, and resembles the Death by a Thousand Cuts.”
Teixeira v. Cnty. of Alameda, 873 F.3d 670, 694 (9th Cir.
2017), cert. denied sub nom., 138 S. Ct. 1988 (2018).
To be sure, in Heller, the Court reassured readers
that it did not intend to cast doubt on certain longstanding
restrictions. 554 U.S. at 573. But since then, state and local
governments have passed a torrent of restrictive gun laws,
while exceedingly few such laws have been struck down.
Heller is thus far from being treated as the transformative

4
case it was written to be. Instead, the circuits lean on a few
limiting sentences from Heller to rubberstamp whatever
infringement on the Second Amendment that anti-gun
politicians and lobbyists dream up.
These infringements even include laws resembling
those that Heller itself struck down. For example,
California effectively banned the commercial sale of
any new semiautomatic handgun released after 2013 by
requiring “microstamping,” a technology that is not even
available at this time—and may never be. Peña v. Lindley,
898 F.3d 969, 996 (9th Cir. 2018) (Bybee, J., dissenting),
cert. denied, 141 S. Ct. 108 (2020). The restriction at issue
in Peña thus differs from the handgun ban overturned
by Heller only by degrees. For grandfathered pistols
without microstamping technology will eventually stop
being made or otherwise fall off of California’s approved
handgun roster. At which point, unless microstamping
someday becomes a reality, semiautomatic handguns will
have been effectively banned in California. Yet in Peña,
the Ninth Circuit upheld the state’s de facto handgun ban
in defiance of Heller, and this Court denied review.
Just a few years earlier, the Ninth Circuit upheld a San
Francisco ordinance requiring handguns in the home to be
kept in a locked container or disabled with a trigger lock.
Jackson v. City & Cnty. of S.F., 746 F.3d 953, 970 (9th Cir.
2014), cert denied, 576 U.S. 1013 (2015). The law differed
from the D.C. storage requirement invalidated in Heller
only in that it expressly allowed residents to unlock their
firearms when carried by a person over 18—ostensibly
so the firearms could be used in self-defense. Id. But it
is a distinction is without consequence. In Heller, the
District conceded that its storage law had an implied self-

5
defense exception, but the Court still held that it violated
the Second Amendment under any level of scrutiny. 554
U.S. at 628. 2 There is no principled reason for treating
San Francisco’s storage law any differently. The Court
denied certiorari in Jackson even though the decision was
“in serious tension with Heller.” Jackson v. City & Cnty.
of S.F., 576 U.S. 1013, 1015 (2015) (Thomas, J., dissenting
from denial of certiorari).
Magazine-capacity limits, which in their worst forms
include the taking of magazines with capacities over some
arbitrary limit, are yet another example of this torrent
of infringements. At minimum, Heller was intended to
protect weapons in common use for lawful purposes, 554
U.S. at 627, which magazines over ten rounds clearly
are. Indeed, in most states, they are not only extremely
popular, they come standard with some of the best-selling
firearms in the country. Pet. Writ Cert. at 1. Yet California,
New Jersey, and other jurisdictions have disregarded
the popularity of magazines over ten rounds in favor
of unconstitutional bans on their sale, possession, and
use. In all, nine states and the District of Columbia have
banned so-called “large capacity magazines” (“LCMs”).
For people in these jurisdictions, it doesn’t matter how
common LCMs are—their legislatures have decided that
they can only be trusted with limited-capacity rights.
This Court is now on track to decide a Second
Amendment issue for the first time since 2010 after
2. See also Oral Arg. Tr. at 82-84, Dist. of Columbia v.
Heller, 554 U.S. 570 (2008) (for a humorous exchange between
Chief Justice Roberts, Justice Scalia, and counsel for the District,
about the burden of preparing a locked up or disabled firearm for
defensive use).

6
granting certiorari in New York State Rifle & Pistol
Association v. Corlett, No. 20-843 (Apr. 26, 2021). That case
is likely to decide the important question of whether New
York’s denial of concealed carry licenses for self-defense
violates the Second Amendment. Amici are relieved that
the Court will hear a Second Amendment question that
may revitalize Heller. That said, the Court should not stop
at deciding a single question after years of silence. When
a house has not been cleaned in years, it is not enough to
clean one room and leave the accumulated filth in every
other room undisturbed. Similarly, it is not enough for the
Court to decide only questions related to carry and allow
circuits like the Ninth to keep undermining Heller on all
other Second Amendment questions.
New York State Rif le & Pistol Association and
Association of New Jersey Rifle & Pistol Clubs Inc. raise
fundamentally different questions about the scope of
the Second Amendment and, potentially, what form the
analysis should take. As the Court anticipated in Heller,
more lawsuits are necessary to clarify the field. Indeed,
recognizing that Heller was its “first in-depth examination
of the Second Amendment,” the Court warned:
One should not expect [Heller] to clarify the
entire field, any more than Reynolds v. United
States, 98 U.S. 145 (1879), our first in-depth Free
Exercise Clause case, left that area in a state of
utter certainty…. [T]here will be time enough
to expound upon the historical justifications for
the exceptions we have mentioned if and when
those exceptions come before us.
554 U.S. at 635. The time to address some of the Second
Amendment questions Heller left unanswered has come.

7
II. The Erosion of the Second Amendment in the Ninth
Circuit Illustrates How Courts Have Disrespected
Heller
Amici are better positioned than most to empathize with
Petitioners’ struggles with New Jersey’s unconstitutional
gun laws and the Third Circuit’s refusal to strike them
down. Much like Petitioners, Amici have watched as the
Ninth Circuit has aggressively eroded Heller, and with it,
the Second Amendment rights of millions of Americans.
Indeed, examples of the Ninth Circuit’s thinly veiled
contempt for the Second Amendment are legion.
In one case, rather than doctrinally stretch to avoid
Second Amendment protection altogether, the Ninth
Circuit, en banc, refashioned the plaintiffs’ claim as
seeking relief that was undisputedly unavailable—and not
what they were asking for. Peruta v. San Diego, 824 F.3d
919 (9th Cir. 2016), cert. denied, 137 S. Ct. 1995 (2017).
There, the plaintiffs challenged denials of their licenses
to carry a concealed firearm, arguing that the licensing
authority’s policy offended the Second Amendment
because it did not recognize the right to self-defense as
“good cause” to carry a firearm. Id. at 924. Correctly
applying this Court’s textual and historical analysis,
a three-judge panel agreed and declared the policy
unconstitutional. Peruta v. San Diego, 742 F.3d 1144 (9th
Cir. 2014), rev’d en banc, 824 F.3d 919.
As has become the norm in the Ninth Circuit whenever
a panel invalidates an unconstitutional gun control law, the
court reheard Peruta en banc and reversed the decision, 3
3. Since Heller, nearly every pro-Second Amendment panel
decision in the Ninth has been reviewed en banc and overturned.

8
holding that the plaintiffs demanded licenses to carry
concealed and that no right to concealed carry exists.
824 F.3d at 939. But the court ignored the fact that the
plaintiffs expressly sought to carry in whatever manner
the state preferred (which happened to be concealed
under a license). Id. at 952-55 (Callahan, C., dissenting).
They were arguing for a right to carry, not a right to
carry concealed. Id. Suggesting otherwise, the en banc
decision is disingenuous at best. What’s more, because
open carry is generally unlawful in California, the only
way to lawfully carry is licensed and concealed. Id. at
950. So even though the court did not then address the
legality of an open carry ban, the Peruta decision set
precedent supporting a ban on all public carry within the
Ninth Circuit.
Years later, the Ninth Circuit (again sitting en banc)
would use that precedent to obliterate the right “to bear
arms” altogether. See Young v. Hawaii, 992 F.3d 765 (9th
Cir. 2021). There, the court upheld the county of Hawaii’s
policies effectively barring open carry, reasoning that “[t]
here is no right to carry arms openly in public; nor is any
such right within the scope of the Second Amendment.” Id.
at 821. Under Heller, it seems a flat ban on “bearing” arms
would be unconstitutional under any test. See 554 U.S. at
628. But, through its decisions in Peruta and Young, the
Ninth Circuit has placed itself at odds with Heller.

The only exception of which Amici are aware is Duncan v. Becerra,
742 F. App’x 218 (9th Cir. 2018), the state’s unsuccessful appeal of
an order preliminarily enjoining California’s LCM possession ban.
And even then, the court expressed interest in rehearing the case
en banc, relenting only after the state opposed review.

9
Similarly, in Teixeira v. County of Alameda, 873 F.3d
670, 690 (9th Cir. 2017), cert. denied sub nom., 138 S. Ct.
1988 (2018), the Ninth Circuit held that a restriction on
the location of firearm retailers “does not burden conduct
falling within the [Second] Amendment’s scope....” The
ordinance prohibited gun stores within 500 feet of any
residential district, school, gun store, or establishment
that sells liquor. Id. Even though the ordinance effectively
banned new gun stores, the court artificially limited
the question in Teixeira, asking whether there is “an
independent, freestanding right to sell firearms….” Id. at
682. Holding that there is not, the Ninth Circuit reasoned
that “the right of gun users to acquire firearms legally is
not coextensive with the right of a particular proprietor
to sell them.” Id.
The Teixeira court’s reasoning gives the government
unfettered power to prohibit gun stores and, effectively,
nullify the Second Amendment. For without the ability
to buy and sell firearms, the right to own them means
nothing. The court unconvincingly resisted this logical
implication, claiming that its ruling did not significantly
impair the right to acquire arms but was merely holding
“the Second Amendment does not independently protect
a proprietor’s right to sell firearms.” Id. at 690.
This Court famously declared that “it is not the
role of this Court to pronounce the Second Amendment
extinct.” Heller, 554 U.S. at 636. That may be so, but
the Ninth Circuit seems to think its role is to do so. By
granting certiorari here, the Court can disabuse the Ninth
Circuit of that notion on at least one more critical Second
Amendment issue.

10
III. Comparing the Different Decisions of the Third and
Ninth Circuits Regarding the Constitutionality of
LCM Bans
Recently, a Ninth Circuit panel ruled that California’s
LCM ban violated the Second Amendment because it
imposed a substantial burden on the right to self-defense
and it severely burdened the core of the constitutional
right of law-abiding citizens to keep and bear arms.
Duncan, 970 F.3d at 1162. To the surprise of nobody,
the Ninth Circuit has yet again decided that a win for
the Second Amendment will be reheard en banc. Amici
despair that without this Court acting, the result is a
foregone conclusion.
Regardless of the fate of Duncan though, the Ninth
Circuit panel decision in that case still presents an
excellent analytical comparison to the Third Circuit’s
analysis in Association of New Jersey Rifle & Pistol Clubs
v. Attorney General of New Jersey, 910 F.3d 106 (3d Cir.
2018) (“ANJRPC”). The similarities and contrasts between
these two rulings function as an excellent case study into
why the Circuits need this Court’s guidance to resolve
these issues.
A.

Both ANJRPC and Duncan Hold That LCMs
Are in Common Use

This Court confirmed that the Second Amendment
protects a fundamental, individual right to keep and bear
arms that, under the Fourteenth Amendment, state and
local governments are bound to respect. Heller, 554 U.S.
at 581; McDonald, 561 U.S. at 750, 766. It follows that
there are certain “instruments that constitute bearable

11
arms,” Heller, 554 U.S at 582, that law-abiding citizens
have an inviolable right to possess and use. Indeed, the
constitution protects firearms “of the kind in common use
... for lawful purposes like self-defense.” Id. at 624. But it
“does not protect those weapons not typically possessed
by law-abiding citizens for lawful purposes.” Id. at 625.
Put another way, the Second Amendment does not protect
arms “that are highly unusual in society at large,” id.
at 627, but it definitively protects those in common use
for lawful purposes, id. at 624. This distinction is fairly
supported by the historical prohibition on carrying
“dangerous and unusual weapons.” Id. at 627.
As Petitioners correctly explain, the banned magazines
are far from unusual. Pet. Writ Cert. at 4-5, 10, 18, 19, 22.
Millions of Americans possess them for lawful purposes,
including the core lawful purpose of self-defense. Id. at 4.
This point is not disputed by either Duncan or ANJRPC.
Indeed, the Duncan panel wrote that “[f]irearms with
greater than ten round capacities existed even before
our nation’s founding, and the common use of LCMs for
self-defense is apparent in our shared national history,”
970 F.3d at 1147. The ANJRPC panel, for its part, did
everything but concede that the banned magazines are in
common use. It noted that “[m]illions of LCMs have been
sold since 1994,” that “LCMs often come factory standard
with semi-automatic weapons,” and that “[g]un owners
use LCMs for hunting and pest control.” ANJRPC, 910
F.3d at 112. Constitutional protection is thus clear, and
both California’s and New Jersey’s bans are necessarily
incompatible with the Second Amendment.
Heller confirms this implication of the constitutional
text. There, the Court held that the Second Amendment

12
“elevates above all other interests the right of law-abiding,
responsible citizens to use arms in defense of hearth and
home.” Heller, 554 U.S. at 635 (emphasis added). After
finding that handguns are protected “arms,” the Court
held without pause that D.C.’s ban violated the Second
Amendment. While Heller recognizes that the handgun
ban would fail “any of the standards of scrutiny,” id. at
628, it made a point of not applying any of them. That the
Court did so is unsurprising—for the Second Amendment
would mean little if the application of a particular test
might permit the government to ban the very firearms
the right protects. That said, even though both Duncan
and ANJRPC deal with magazine bans and such laws lack
any tailoring, both panels continued their analyses, and
so the comparison between the two continues.
B. Both ANJRPC and Duncan Also Hold That
LCMs Are Protected by the Second Amendment,
But Only Duncan Engages in a Text, History,
and Tradition Analysis
Many circuits employ a two-step approach to Second
Amendment claims, asking first whether a given restriction
burdens conduct within the the Amendment’s scope and,
if it does, applying the appropriate level of heightened
scrutiny. Often, courts skip the first step and assume,
without deciding, that the Second Amendment applies.
See, e.g., Kolbe v. Hogan, 849 F.3d 114 (4th Cir. 2019);
Jackson, 746 F.3d 953; Heller v. District of Columbia,
670 F.3d 1244 (D.C. Cir. 2011) (Heller II). This is not the
courts being magnanimous. To the contrary, doing so
ensures they need not confront the Second Amendment’s
text and history, teleporting them directly to the second
step, where the real opportunities to manipulate the
analysis reside.

13
This is exactly what happened in ANJRPC. Right
after conceding that the record proved that millions of
LCMs are “typically possessed by law-abiding citizens”
for lawful purposes, ANJRPC, 910 F.3d at 116, the panel
“assume[d] without deciding that LCMs are typically
possessed by law-abiding citizens for lawful purposes and
that they are entitled to Second Amendment protection.”
Id. at 117.
In contrast, while the Duncan panel also recognized
that LCMs are protected, it did so only after first
examining the history of firearms and magazines able to
hold over 10 rounds. 970 F.3d at 1146-1149. For example,
the Duncan panel explained that “the first firearm that
could fire more than ten rounds without reloading was
invented around 1580.” Id. at 1147. The panel then traced
the history of such arms from before the Founding
through the period just after the Revolution, highlighting
well-known inventions like the Giradoni air rifle which
“had a 22-round capacity and was famously carried on the
Lewis and Clark expedition.” Id. The panel also discussed
the rise of self-contained magazines in handguns,
including the Browning 13-round Hi-Power pistol, which
achieved mass-market success in the mid-1900s. Since
then, the Duncan panel observed, “new semi-automatic
pistol designs have replaced the revolver as the common,
quintessential, self-defense weapon.” Id.
After discussing the use of LCMs in rifles as well,
the panel wrote:
The point of our long march through the
history of firearms is this: The record shows
that firearms … [over] ten rounds … have been

14
available in the United States for well over two
centuries. While the Supreme Court has ruled
that arms need not have been common during
the founding era to receive protection under the
Second Amendment, the historical prevalence
of firearms capable of holding more than ten
bullets underscores the heritage of LCMs in
our country’s history.
Id. at 1149. The panel concluded its historical analysis by
holding that LCMs are not “unusual” arms, and because
they are not unusual, the panel declined to opine whether
they are “dangerous.” Id.
The difference in how the Third and Ninth circuits
approached this first step of the analyses is yet another
reason the Court should grant certiorari. The Court
should clarify that it is not enough for courts to “assume
without deciding” that Second Amendment protections
apply. There appears a clear explanation for why courts
avoid examining the history of the conduct at issue
before deciding whether it can be restricted. It allows
them to avoid the discomfort of upholding restrictions on
protected activity just after explaining that the conduct
has historically been accepted. This Court should force
them to confront that discomfort head-on.

15
C.

ANJRPC Upheld New Jersey’s LCM Ban
Under a Watered-down Form of Intermediate
Scrutiny Favored by Most Circuits, While
Duncan Stands Out for Its Correct Application
of Strict Scrutiny
1.

The So-Called “Intermediate Scrutiny”
Applied to Second Amendment Cases Is a
Glorified Rational Basis Test

In the years since this Court decided Heller, very few
Second Amendment challenges have ever been analyzed
under strict scrutiny. This is a striking departure from
the default that strict scrutiny applies to restrictions on
fundamental rights. See, e.g., Perry Educ. Ass’n v. Perry
Loc. Educators’ Ass’n, 460 U.S. 37, 54 (1983); see also
Heller II, 670 F.3d at 1284-85 (Kavanaugh, J., dissenting).
It also reveals the lower courts’ bias against the Second
Amendment and their ability to sway the analysis in
favor of upholding almost any gun-control measure. That
virtually every Second Amendment claim brought to
date has warranted only intermediate scrutiny is itself
suspicious. But when considering the specific decisions,
there remains little doubt something odd is afoot.
Generally, courts avoid strict scrutiny by narrowly
construing “core” Second Amendment conduct as only the
precise conduct at issue in Heller—handgun possession in
one’s home. This error is the same one the Third Circuit
made below; mischaracterizing LCM bans as not imposing
a severe burden on the core of the Second Amendment.
ANJRPC, 910 F.3d at n.21. But even if a law is found to
burden conduct falling within the Second Amendment’s
core, courts typically consider anything less than a

16
complete ban on that conduct to be an insignificant burden
on the right, even though Heller nowhere suggests “that
a law must rise to the level of the absolute prohibition at
issue in that case to constitute a ‘substantial burden.’”
Jackson v. City and Cnty. of S.F., 576 U.S. 1013, 1016
(2015) (Thomas, J., dissenting from denial certiorari). Yet
ANJRPC shows us that even when a full ban is at issue,
too often courts will do whatever necessary to uphold the
restriction.
Worse than treating intermediate scrutiny as
the default standard for analyzing restrictions on the
fundamental right to keep and bear arms, however, is
the way lower courts contort the intermediate scrutiny
standard, ensuring that almost no gun-control measure
could fail it. Indeed, almost every court purporting to apply
“intermediate scrutiny” has instead applied a toothless
form of review more like rational basis. But this Court
has expressly rejected that standard as inappropriate for
evaluating government restrictions on enumerated rights,
including the right to arms. Heller, 554 U.S. at 628, n.27.
Under heightened review, a challenged law is
presumed unconstitutional, and the state bears the burden
of justifying the law’s validity. See, e.g., R.A.V. v. City of St.
Paul, 505 U.S. 377, 382 (1992). Under true intermediate
scrutiny, as explained by this Court, the burden is on the
government to prove a “substantial relationship” between
the law and an important government objective. Clark v.
Jeter, 486 U.S. 456, 461 (1988). What’s more, the “law must
be narrowly tailored to serve a significant governmental
interest.” Packingham v. North Carolina, --U.S.--, 137
S. Ct. 1730, 1736 (2017)(internal quotations omitted).
This test ensures that the encroachment on liberty does

17
not “burden substantially more [protected conduct] than
is necessary to further the government’s legitimate
interests.” McCullen v. Coakley, 573 U.S. 464, 486 (2014).
In the Second Amendment context, however, circuit
courts have described intermediate scrutiny in starkly
weaker terms. Indeed, in the wake of the courts’
reticence to expand Heller beyond its narrow facts
and their eagerness to sustain nearly any sort of gun
control short of a flat ban on firearms, a consistent theme
has emerged—“substantial deference” to the will of
legislative majorities. See, e.g., Kolbe, 849 F.3d at 140 (“The
judgment made by the General Assembly of Maryland
[…] is precisely the type of judgment that legislatures are
allowed to make without second-guessing by a court.”);
Peña, 898 F.3d at 969, 979 (“We do not substitute our own
policy judgment for that of the legislature,” “we ‘owe [the
legislature’s] findings deference.”); Drake v. Filko, 724
F.3d 436, 440 (3d Cir. 2013) (“We refuse ... to intrude upon
the sound judgment and discretion of the State of New
Jersey.”). Ultimately, this extreme deference has led to
courts singling out the right to keep and bear arms for
especially unfavorable treatment in defiance of the Court’s
admonishment against treating the Second Amendment
“as a second-class right,...” McDonald, 561 U.S. at 780
(plurality op.).
In short, since Heller, a Second Amendment analytical
framework has emerged that all but guarantees not only
that intermediate scrutiny will apply, but also that nearly
every gun-control measure will survive it. This analysis
is in no sense a heightened standard of review. It is in
effect rational basis review, a level of scrutiny that Heller
undeniably forecloses. 554 U.S. at 628, n.27. There would

18
almost certainly be different results in at least some
of these cases had the courts applied real heightened
scrutiny or, better yet, decided to “undertake a complete
historical analysis of the scope and nature of the Second
Amendment right ….” Peruta, 742 F.3d at 1173.
2.

The ANJRPC Panel Upheld New Jersey’s
LCM Ban Under This Faux Intermediate
Scrutiny Standard

After concluding that LCM bans do not severely
burden the core Second Amendment right, in part based
on the nonsensical assertion that LCMs are not well-suited
for self-defense, ANJRPC, 910 F.3d at 118, the Third
Circuit moved on to its analysis of intermediate scrutiny.
As discussed above, true intermediate scrutiny requires
the government prove a substantial relationship between
the law and its important objective, and the law must
be narrowly tailored to serve a significant government
interest. Far from applying this test, the majority never
once uttered the phrase “narrowly tailored.” The dissent
rightfully objected to this, arguing that the “majority
does not even demand evidence of tailoring. But tailoring
is not limited to the First Amendment, as our precedent
makes clear. Tailoring is fundamental to intermediate
scrutiny, wherever applied.” ANJRPC, 910 F.3d at 132
(citing United States v. Marzzarella, 614 F.3d 85, 98 (3d
Cir. 2010) (Bibas, C.J., dissenting).
Nevertheless, claiming that “the risk inherent to
firearms and other weapons distinguishes the Second
Amendment from other fundamental rights” ANJRPC,
910 F.3d at n.28, the majority in ANJRPC applied a
breed of “intermediate scrutiny” devoid of the tailoring

19
required in other rights contexts. To pass intermediate
scrutiny, the court held, “the government must assert
a significant, substantial, or important interest; there
must also be a reasonable fit between that asserted
interest and the challenged law, such that the law does
not burden more conduct than is reasonably necessary.”
Id. at 106 (emphases added). In other words, the majority
downgraded the exacting requirement of “narrow
tailoring” to a mere “reasonable fit,” a standard that
sounds suspiciously like rational basis. After all, in Second
Amendment case law, there seems to be no substantive
difference between being rationally related to a legitimate
state interest, and “reasonably fitting” an important
government interest. And because firearms are inherently
dangerous, every gun law arguably serves the important
government interest in public safety.
ANJRPC highlights this exceedingly well. The panel
held that New Jersey’s LCM ban reasonably fits New
Jersey’s interest in promoting public safety because
LCMs have been used in some mass shootings. Id. at
119. ANJRPC thus suggests that statistically rare crimes
justify banning LCMs, even though the panel also held
that such LCMs are commonly owned by millions of
law-abiding citizens. It is no wonder then that ANJRPC
dispensed with tailoring altogether because this wholesale
ban would never survive the narrow tailoring that true
intermediate scrutiny requires. As the dissent notes,
“This reasoning would be enough for rational-basis review.
And it could be enough for intermediate scrutiny too. But
the government has produced no substantial evidence of
this link.” Id. at 132 (Bibas, C.J., dissenting).

20
To conclude its faux intermediate scrutiny analysis,
the majority held that New Jersey’s LCM ban does not
burden more conduct than reasonably necessary because
it does not disarm the individual. Id. at 121. By that
standard, any gun law would be acceptable so long as a
law-abiding citizen can still purchase a gun of some kind.
It’s hard to imagine such a standard being applied to any
other fundamental right.
In the end, the Third Circuit (like other circuits
before it) applied what is effectively a rational basis test
to restrictions on a fundamental right. This practice must
not stand any longer. Fortunately, Duncan provides a
compelling alternative.
3.

The Duncan Panel Held That Strict
Scrutiny Should Apply, But Even if it
Does Not, LCM Bans Cannot Survive True
Intermediate Scrutiny

Once again turning to history and tradition, Duncan
held that California’s LCM ban substantially burdens
core Second Amendment conduct, and thus strict scrutiny
applies. 970 F.3d at 1152. “[T]he right of armed self-defense
sits atop our constitutional order and remains rooted in
our country’s history. Any law that limits this right of
self-defense must be evaluated under this constitutional
and historical backdrop.” Id. at 1153.
Next, the Duncan panel rejected the argument
(embraced by the ANJRPC majority) that LCM bans
impose no substantial burden on the Second Amendment
because citizens still have access to capacity-limited guns.
Id. at 1156. Noting that D.C. had argued in Heller that

21
their handgun ban passed muster because citizens could
still use a shotgun or other arms for self-defense, the
Duncan panel rightly observed that the Supreme Court
had rejected this very argument in that case. Id.
Because the law banned an “entire class of ‘arms’
that is overwhelmingly chosen by American[s]”
for self-defense—a handgun, in that case—the
restriction was “severe” and ran afoul of the
Second Amendment. California’s law, too, bans
an “entire class of ‘arms’” commonly used for
self-defense and thus infringes on the Second
Amendment.
Id.
As to whether LCM bans substantially burden
“core” Second Amendment rights, the Duncan panel
wisely avoided the State’s bait of engaging in a policy
decision that “weighs the pros and cons of an LCM ban to
determine substantial burden.” Id. at 1157. Instead, the
panel concluded that the burden was “plainly obvious.”
Id. at 1158-59. For “when the government bans tens of
millions of protected arms that are staples of self-defense
and threatens to confiscate them from the homes of lawabiding citizens, that imposes a substantial burden on core
Second Amendment rights.” Id. at 1159.
And unlike ANJRPC, the Duncan panel rejected
the premise that the inherent dangers of firearms
distinguished the Second Amendment from any other
fundamental right. Indeed, the panel held, “[t]he right
to keep and bear arms … is not the only constitutional
right that has controversial public safety implications. All

22
of the constitutional provisions that impose restrictions
on law enforcement and on the prosecution of crimes fall
into the same category.” Id. at 1160 (citing McDonald,
561 U.S. at 783).
Having concluded that California’s LCM ban must
pass strict scrutiny to survive, Duncan then held that
the ban could not meet this standard. While agreeing that
California’s interests were compelling, the panel held that
“a statewide blanket ban on LCM possession everywhere
and for nearly everyone” was not at all tailored and was
not the least restrictive means of achieving the state’s
interests. Duncan, 970 F.3d at 1164.
Even so, Duncan also held that even under intermediate
scrutiny, California’s LCM ban would still not survive.
At the outset, the panel rejected the sort of weakened
intermediate scrutiny that ANJRPC used to uphold
New Jersey’s ban. For “[w]hatever its precise contours
might be, intermediate scrutiny cannot approximate the
deference of rational basis review. Heller forecloses any
such notion.” Id. at 1166. Examining California’s ban
under real intermediate scrutiny, then, the panel held
that California’s ban lacked any tailoring at all and, as
such, could not survive intermediate scrutiny. The panel
observed:
The statute operates as a blanket ban on all
types of LCMs everywhere in California for
almost everyone. It applies to rural and urban
areas, in places with low crime rates and high
crime rates, areas where law enforcement
response times may be significant, to those who
may have high degrees of proficiency in their

23
use for self-defense, and to vulnerable groups
who are in the greatest need of self-defense.
Id. at 1167.
Finally, the Duncan panel rejected California’s
argument that a complete ban was necessary to keep
LCMs from falling into the wrong hands. But “[t]he state
could ban virtually anything if the test is merely whether
something causes social ills when someone other than its
lawful owner misuses it. Adopting such a radical position
would give the government carte blanche to restrict the
people’s liberties under the guise of protecting them.” Id.
at 1168. The panel refused to write that check.
Duncan, then, presents a good alternative to the
disrespect thrown at the Second Amendment by other
circuits, and reaches its conclusion through extensive
historical analysis of the kind other circuits routinely
avoid. This is likely why the Ninth Circuit has ordered a
rehearing of the case en banc, hoping for the opportunity
to reverse yet another pro-Second Amendment victory.
The Court should grant certiorari here and stop that from
happening.

24
CONCLUSION
It is undeniable that “Heller has left in its wake a
morass of conflicting lower court opinions regarding
the proper analysis to apply to challenged firearms
regulations.” United States v. Chester, 628 F.3d 673, 68889 (4th Cir. 2010) (Davis, J., concurring in the judgment).
Resolving only one Second Amendment issue would leave
most of this morass undisturbed and allow the abuse of
Heller to continue. This Court should grant the petition
for a writ of certiorari.
May 28, 2021		

Respectfully Submitted,
C.D. Michel
A nna M. Barvir
Counsel of Record
Konstadinos T. Moros
Michel & A ssociates, P.C.
180 East Ocean Boulevard, Suite 200
Long Beach, CA 90802
(562) 216-4444
abarvir@michellawyers.com
Counsel for Amicus Curiae

